           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    UNDERPAID DISABLED WIDOWS


     February 2011   A-01-10-20115




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                               SOCIAL SECURITY
MEMORANDUM

Date:      February 23, 2011                                                                   Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Underpaid Disabled Widows (A-01-10-20115)


           OBJECTIVE
           The objective of our review was to determine whether individuals entitled to disabled
           widow(er)’s 1 benefits (DWB) were receiving benefits based on the correct month of
           entitlement (MOET).

           BACKGROUND
           The Social Security Administration (SSA) administers the Old-Age, Survivors and
           Disability Insurance program under Title II of the Social Security Act. 2 The program
           provides monthly benefits to retired or disabled workers and their families, and to
           survivors of deceased workers.

           Certain surviving spouses and divorced spouses of fully insured deceased workers may
           receive DWB. 3 In 2009, SSA paid 236,480 beneficiaries DWB. To be eligible for this
           benefit, these beneficiaries must
                 •   be at least age 50 but not yet age 60 and disabled;
                 •   be unmarried or remarried after age 50 and after the onset of disability;
                 •   be disabled within 7 years of the worker’s death or, if applicable, the last receipt
                     of another type of widow’s benefits;
                 •   not be entitled to a retirement benefit on his or her own account that equals or
                     exceeds the deceased number holder’s Primary Insurance Amount (PIA); 4 and
                 •   file an application.

           1
               Throughout our report, we use the term widow to include both widows and widowers.
           2
               Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
           3
             Social Security Act §§ 202(e) and 202(f); 42 U.S.C. §§ 402(e) and 402(f). See Appendix C for more
           information about the different types of widow’s benefits.
           4
            The PIA is the figure on which monthly benefits are based and is determined by an average of the
           worker’s earnings in Social Security covered employment.
Page 2 - The Commissioner


A claimant becomes entitled to benefits in the month he or she files an application, if he
or she meets all other factors of entitlement, which includes serving a 5-month waiting
period. 5 Several factors influence the MOET determination, including the claimant’s
age, date of filing, and date of disability onset. The Agency may pay benefits
retroactively up to 12 months before the filing date. 6

A disabled widow beneficiary receives approximately 71.5 percent of the deceased
worker’s PIA per month beginning with the MOET. 7 Additionally, the disabled widow
beneficiary is entitled to Medicare benefits 24 months after the MOET. 8 These claims
are usually processed using SSA’s systems, but, in cases where exceptions occur,
manual processing by SSA staff is necessary.

During our review, Disability Insurance and Supplemental Security Income Claims
Approved in 2006 but Not Paid, 9 we found individuals approved in 2006 who were
receiving benefits, but whose benefits should have started earlier than they did. SSA
staff concluded that the Agency should have paid earlier 16 claims we identified. We
initiated this review to determine the extent of this issue in other years.

We obtained a file of all disability allowances for Calendar Years 2003 through
2005 and 2007 through 2009 processed by the disability determination services. (See
Table 1 for the number of DWB claims allowed in these years.) Through analysis of this
file, we identified 3,749 DWB claims that appeared to be processed using an incorrect
MOET. These individuals should have started receiving benefits (cash payments and/or
Medicare) earlier than they did. We randomly selected 50 cases for detailed review.
(See Appendix B for our scope, methodology, and sample results.)

                       Table 1: Number of DWB Allowances by Year
    Year            2003          2004         2005           2007           2008             2009
Number of
Allowances         27,324         27,744      29,576         28,810         30,605         31,518




5
 Social Security Act §§ 202(e) and 202(f); 42 U.S.C. §§ 402(e) and 402(f). See also, SSA, POMS,
DI 10110.001.
6
    SSA, POMS, GN 00204.030(B)(2).
7
    SSA, POMS, DI 11015.001(B).
8
    SSA, POMS, DI 10110.001(G)(2).
9
 Disability Insurance and Supplemental Security Income Claims Approved in 2006 but Not Paid
(A-01-10-11009), July 16, 2010.
Page 3 - The Commissioner


RESULTS OF REVIEW
SSA processed some claims for DWB using an incorrect MOET. Based on our review,
we estimate that SSA processed approximately 3,000 DWB claims using an incorrect
MOET from 2003 through 2005 and 2007 through 2009. As a result, SSA underpaid
approximately 2,400 of these beneficiaries about $14 million. Additionally, we estimate
that approximately 2,800 beneficiaries were delayed in receiving Medicare entitlement.
SSA’s policies related to determining MOET are rather complex, and many beneficiaries
would not recognize that their MOET was determined incorrectly.

Of the 50 cases in our sample,                        Results of Review

•   40 (80 percent) were processed                                         8 Cases-
    using an incorrect MOET, and         40 Cases-                        Processed
    SSA took corrective action based      Incorrect                        Correctly
                                         MOET Now
    on our review;                       Corrected
•   8 (16 percent) were processed                                          2 Cases-
    correctly; and                                                          Pending
                                                                           Correction
•   2 (4 percent) were processed
    using an incorrect MOET, but
    SSA was still correcting them as
    of January 2011.

CASES PROCESSED USING AN INCORRECT MONTH OF ENTITLEMENT

Of the 40 cases processed using an incorrect MOET that have been corrected, 29 were
underpaid and Medicare entitlement was delayed; 8 were not underpaid, but Medicare
entitlement was delayed; and 3 were underpaid, but Medicare was processed correctly.
(See Table 2.)

      Table 2: Cases with Underpayments and Delayed Medicare Entitlement
                           Case Type                            Number of Cases
              Underpayment and Delayed Medicare                           29
                     Delayed Medicare Only                                 8
                       Underpayment Only                                   3
       Total Cases Processed Using an Incorrect MOET                      40
Page 4 - The Commissioner


Beneficiaries Underpaid

Of the 50 beneficiaries in our sample, SSA underpaid 32 about $190,000 because of
the incorrect MOET. 10 We referred these cases to SSA, and, as a result of the
Agency’s corrective action, these beneficiaries received about $177,000. 11 These
beneficiaries were underpaid an average of 8 months, ranging from 1 to 27 months.

For example, a widow from Georgia filed for DWB in April 2006. The date of her
disability onset was January 11, 2004. When the Agency processed her claim in
February 2007, SSA assigned her a MOET of April 2006, and this is when her benefits
began. We referred this case to SSA in July 2010, and, after reviewing the case, the
Agency corrected her MOET to April 2005 because she was due 12 months of
retroactive benefits. As a result, she received a check for $13,504 in September 2010.
Additionally, she originally became entitled to Medicare in April 2008, but her
entitlement would have begun in April 2007 had this claim been processed correctly.

Beneficiaries with Delayed Medicare Entitlement

Of the 50 beneficiaries in our sample, 37 were delayed in receiving Medicare
entitlement because of the incorrect MOET. These 37 beneficiaries had their Medicare
delayed by an average of 7 months, ranging from 1 to 27 months.

For example, a widow from North Carolina applied for DWB in March 2009. The date of
her disability onset was March 9, 2008. She was already receiving a monthly check on
her deceased husband’s account because she was caring for a child who also received
benefits on that account. Therefore, she would not receive any additional monthly cash
benefits because of her DWB claim, but she was entitled to Medicare benefits. When
SSA approved her claim in May 2009, her MOET was May 2009, and her Medicare
benefits would start 24 months later, in May 2011. We referred this case to SSA in
July 2010, and after reviewing the case, the Agency corrected her MOET to September
2008 because that is the MOET based on the 5-month waiting period after the date of
disability onset. Her Medicare became effective September 2010—8 months earlier
than it would have had we not referred the case to SSA. Medicare is important to many
individuals, especially those with no other health insurance.




10
  The average past-due benefit was $5,941, and these past-due benefits ranged from a low of $256 to a
high of $18,078.
11
  Of the $190,000 in past-due benefits, $177,000 was paid to the claimants, and $13,000 was used to
collect overpayments on the claimants’ record or from other benefits the claimants were receiving.
Page 5 - The Commissioner


REASONS WHY CASES WERE PROCESSED INCORRECTLY

It appeared that most of these cases needed to be manually processed. The probability
of error increases in these cases because transposition and typographical errors are
more common when SSA staff manually key entitlement data. Additionally, most of
these claims involved past-due benefits when they were initially processed, which may
have added to the complexity of the cases.

CONCLUSION AND RECOMMENDATIONS
Our review found that although SSA processed the majority of DWB cases correctly, the
Agency did not process some beneficiaries’ DWB claims using the correct MOET. We
estimate that SSA processed approximately 3,000 DWB claims using an incorrect
MOET from 2003 through 2005 and 2007 through 2009. These 3,000 cases represent
only 1.7 percent of the 175,577 DWB allowance decisions issued in these years.
Therefore, we recommend SSA:

1. Review the remaining cases in our population in which it appears the wrong MOET
   was used and take appropriate corrective action.

2. Remind employees of the proper procedures to follow when manually processing
   DWB claims.

AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix D for the Agency’s comments.




                                          Patrick P. O’Carroll, Jr.
                                    Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope, Methodology, and Sample Results

APPENDIX C – Comparison of Types of Widow’s Benefits

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                            Appendix A

Acronyms
DWB      Disabled Widow(er)’s Benefit
MOET     Month of Entitlement
PIA      Primary Insurance Amount
POMS     Program Operations Manual System
SSA      Social Security Administration
U.S.C.   United States Code
                                                                                  Appendix B

Scope, Methodology, and Sample Results
To achieve our objective, we:

•   Reviewed applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) regulations, rules, policies, and procedures.
•   Reviewed prior Office of the Inspector General reports.
•   Obtained a file of all disability claims with an initial- or reconsideration-level
    allowance in Calendar Years 2003 through 2005 and 2007 through 2009. From this
    file, we identified 3,749 beneficiaries whose disabled widow(er)’s benefit (DWB)
    claims appear to have been processed using the wrong month of entitlement
    (MOET) and therefore they should have started receiving benefits (cash payments
    and/or Medicare) earlier than they did.
•   Selected a random sample of 50 cases for detailed review. For each case, we:
      Reviewed SSA’s systems, including the Master Beneficiary Record and
       Disability Determination Services Query, to determine whether the correct
       MOET was used when processing the claim.
      Determined whether an underpayment existed and/or Medicare entitlement
       should have begun sooner and calculated the number of months that elapsed
       between the correct MOET and the MOET used to process the claim.
      Calculated the amount of the underpayment that existed on the record.
      Referred cases with potential findings to SSA’s Office of Operations for review
       and appropriate action. 1

We conducted our audit between July and November 2010 in Boston, Massachusetts.
The entity audited was SSA’s field office staff under the Deputy Commissioner for
Operations. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We tested the
data obtained for our audit and determined them to be sufficiently reliable to meet our
objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.




1
  We identified a population of 3,749 beneficiaries where it appears SSA processed their DWB claims
using the wrong MOET. We reviewed a random sample of 50 cases and referred 42 to SSA for
confirmation. When reviewing the remaining cases to refer to SSA, we identified 15 duplicate records in
the file and 16 cases paid correctly. On December 15, 2010, we referred 3,668 cases to SSA.


                                                  B-1
SAMPLE RESULTS

                    Table B-1: Population and Sample Size
     Population size                                                        3,749
     Sample size                                                                50

      Table B-2: DWB Claims Processed Using the Wrong Month of
                             Entitlement
                                Attribute Projections
     Sample cases                                                               40
     Point estimate                                                         2,999
     Projection lower limit                                                 2,569
     Projection upper limit                                                 3,324
         Note: All projections were calculated at the 90-percent confidence level.


       Table B-3: Underpayments to DWB Beneficiaries Resulting
                  from the Wrong Month of Entitlement
                                Attribute Projections
     Sample Results                                                             32
     Point Estimate                                                         2,399
     Projection lower limit                                                 1,931
     Projection upper limit                                                 2,819
                                  Dollar Projections
     Sample results                                                     $190,108
     Point estimate                                                 $14,254,260
     Projection lower limit                                           $9,942,056
     Projection upper limit                                         $18,566,465
          Note: All projections were calculated at the 90-percent confidence level.

     Table B-4: Delayed Medicare Entitlement to DWB Beneficiaries
            Resulting from the Wrong Month of Entitlement
                                Attribute Projections
     Sample cases                                                               37
     Point estimate                                                         2,774
     Projection lower limit                                                 2,323
     Projection upper limit                                                 3,142
         Note: All projections were calculated at the 90-percent confidence level.



                                            B-2
                                                                                Appendix C

Comparison of Types of Widow’s Benefits
The chart below compares eligibility requirements and rules that determine monthly
benefit amounts for three types of Social Security widow benefits. 1

             Current Eligibility Requirements and Rules that Determine
            Monthly Survivor Benefit Amounts (by Type of Widow Benefit)
Eligibility and
benefit amount             Aged widow          Child-in-care widow            Disabled widow
determinants

                                             Eligibility

                                               Has a child-in-care
                      Aged 60 or older         who is under age         Ages 50–59 and disabled
                                               16 or disabled
Basic
                                               Worker died either
                      Worker died fully
                                               fully or currently       Worker died fully insured
                      insured
                                               insured


Marital status        Unmarried, or                                     Unmarried or remarried
(general)             remarried after          Unmarried                after age 50 and after
                      age 60                                            onset of disability
                      If divorced,             If divorced,
                                                                        If divorced, marriage
                      marriage duration        marriage does not
                                                                        duration must equal or
                      must equal or            have to equal or
                                                                        exceed 10 years
                      exceed 10 years          exceed 10 years


Other factors                                                           Disability within 7 years
commonly                                                                of the worker's death or, if
                      None                     None
affecting                                                               applicable, last receipt of
eligibility                                                             child-in-care benefits




1
  Social Security Act §§ 202(e) and 202(f); 42 U.S.C. §§ 402(e) and 402(f), and 20 CFR § 404.335. See
also, SSA, Social Security Bulletin, Vol. 70 No. 3, 2010, “Widows and Social Security”, which can be
found at http://www.ssa.gov/policy/docs/ssb/v70n3/v70n3p89.html.


                                                 C-1
                                     Benefit amounts

Eligibility and benefit                                  Child-in-care      Disabled
                          Aged widow
amount determinants                                      widow              widow
Benefit rate- as
percent of the
                          100 percent                    75 percent         71.5 percent
Primary Insurance
Amount (PIA)


                          Reduced if claimed before      Family maximum
                          the full retirement age        (150 to
                          (71.5 to 100 percent of        187.5 percent of
                          PIA)                           PIA)
                          Limited to the higher of the
Other factors             amount the deceased
commonly affecting        worker would receive if                           None
benefit amounts           alive or 82.5 percent of PIA
                          Increased if the deceased      Earnings test
                          worker earned delayed
                          retirement credits
                          Earnings test




                                            C-2
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY


MEMORANDUM

Date:      January 26, 2011                                                        Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Underpaid Disabled Widows”
           (A-01-10-20115)—INFORMATION

           Thank you for the opportunity to review the draft report. Attached is our response to the report.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Rebecca Tothero, Acting Director, Audit Management and Liaison Staff, at (410) 966-6975.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“UNDERPAID DISABLED WIDOWS” (A-01-10-20115)


We offer the following responses to your recommendations:


Recommendation 1

Review the remaining cases in our population in which it appears the wrong MOET was used
and take appropriate action.

Response

We agree. We will review the remaining cases you identified and take any appropriate
corrective action.

Recommendation 2
Remind employees of the proper procedures to follow when manually processing DWB claims.

Response
We agree. We will issue an administrative message to employees reminding them to use the
correct MOET. In addition, we will include in the reminder the proper procedures to follow
when manually processing DWB claims.




[Additionally, SSA provided technical comments, which were incorporated in the report
where appropriate.]




                                             D-2
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   Phillip Hanvy, Audit Manager

Acknowledgments

In addition to those named above:

   Katie Greenwood, Senior Auditor

   Kevin Joyce, IT Specialist

   Brennan Kraje, Statistician

   William Kearns, IT Specialist

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-10-20115.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
